                           UNITED STATES DEPARTMENT OF EDUCATION
                                OFFICE OF INSPECTOR GENERAL
                                            501 I STREET, SUITE 9-200
                                        SACRAMENTO, CALIFORNIA 95814
                                      PHONE (916) 930-2388 · FAX (916) 930-2390




                                                      December 1, 2006


                                                                                                   Control Number
                                                                                                   ED-OIG/A09F0024

Jack T. O’Connell
State Superintendent of Public Instruction
California Department of Education
1430 N Street
Sacramento, California 95814

Dear Superintendent O’Connell:

This Final Audit Report, entitled California Department of Education’s Migrant Education
Program, presents the results of our audit. The purpose of the audit was to determine whether
the California Department of Education (CDE) and selected Migrant Education Program (MEP)
regions within the State of California have systems in place to ensure the accurate count of
children eligible to participate in the MEP. Our review covered the State’s 2003-2004 migrant
child count.




                                                    BACKGROUND


The MEP is authorized under Part C of Title I of the Elementary and Secondary Education Act
of 1965, as amended. Federal regulations define an MEP-eligible migratory child as a child who
is, or whose parent, spouse, or guardian is, a migratory agricultural worker, including a
migratory dairy worker, or a migratory fisher, and who, in the preceding 36 months, has moved
from one school district to another, to obtain temporary or seasonal employment in agricultural
or fishing work. In addition, the work sought or obtained must be a principal means of
livelihood for the worker and his or her family. The goal of the MEP is to ensure that all migrant
students reach challenging academic standards that all children are expected to meet, and to
prepare them for successful transition to postsecondary education or employment. By law,
Federal MEP funds have been allocated by formula to state educational agencies based on each
state's per pupil expenditure for education and counts of eligible migratory children, who were
aged 3 through 21 and resided within the state during fiscal year 2000-2001.



           Our mission is to promote the efficiency, effectiveness, and integrity of the Department’s programs and operations.
Final Report
ED-OIG/A09F0024                                                                                        Page 2 of 27

California’s MEP funding for award year 2003-2004 was $130,703,626. CDE reported to the
U.S. Department of Education (Department) a total of 312,062 children, who were eligible and
resided in the State for at least a day during the child count reporting period (September 1, 2003
to August 31, 2004). CDE retained one percent of the MEP funds for state administration of the
program. The remainder of the funds was allocated to statewide programs (15 percent) and
23 MEP regions located throughout the State (85 percent). Each MEP region is a local operating
agency responsible for program implementation across one or more school districts within its
region. MEP Region 11, one of the MEP regions we reviewed, consisted of a single district—
Pajaro Valley Unified School District (USD). MEP Region 10 (Los Angeles County Office of
Education), the other region reviewed, had 31 member districts, including Los Angeles USD.

CDE used 2003-2004 migrant child count data to award MEP funds to MEP regions for fiscal
year 2005-2006. MEP Region 10, in turn, used 2003-2004 count data to allocate over half its
2005-2006 grant funds to member districts, including Los Angeles USD. 1

           Table 1. Migrant Count and Funding for Selected MEP Regions and Districts
                                                2003-2004              2005-2006               2005-2006 MEP
       MEP Region and District                 Migrant Child           MEP Funds               Funds Allocated
                                                  Count              Awarded by CDE            by MEP Region
MEP Region 10 – Los Angeles County
                                                   20,097                 $6,694,860              $3,763,007
Office of Education
  Los Angeles USD                                   4,785                                           $816,422
  Other Member Districts                           15,312                                         $2,946,585
MEP Region 11 – Pajaro Valley USD                  14,801                 $4,658,530

In July 2004, the Department’s Office of Migrant Education (OME) strongly recommended that
each state re-interview parents and guardians to assess the accuracy of the 2003-2004 migrant
child count reported to the Department. CDE elected to complete the State re-interview process,
and reported that re-interviews were completed for 409 of the 627 families sampled and
20 children were found ineligible (5 percent).




                                            AUDIT RESULTS


CDE and the two MEP regions reviewed had systems in place to determine migrant child
eligibility and report migrant child counts, but we found that CDE included ineligible children
from the two regions in the State’s 2003-2004 migrant child count. We concluded that CDE
needs to enhance its guidance regarding qualifying moves and investigate identified eligibility
errors. CDE did not explicitly express concurrence with our finding in its comments to the draft
report. Rather, it provided general comments, expressed varying degrees of concurrence and
non-concurrence with our recommendations, and described the corrective actions taken or
1
 MEP funds not allocated to districts are used for regional program administration, identification and recruitment
activities, staff development, data collection, and direct services to children. Under its funding arrangement with
MEP Region 10, Los Angeles USD submits claims to the region for reimbursement up to the district’s allocation
amount.
Final Report
ED-OIG/A09F0024                                                                                        Page 3 of 27

planned to address the recommendations. CDE’s comments on the draft report are summarized
at the end of the finding and included in their entirety as Attachment 2 to this report.

FINDING – CDE Included Ineligible Migrant Children in its 2003-2004 Migrant
          Child Count

We randomly selected 102 migrant children in two school districts (55 of the 4,785 children in
Los Angeles USD and 47 of the 14,801 children in Pajaro Valley USD), and were able to
determine the eligibility status of 51 children. 2 Based on parent interviews and our review of
program and enrollment records, we determined that 38 of the 51 children were not eligible to
participate in the MEP because a qualifying move had not occurred.

Federal regulations at 34 C.F.R. § 200.81 define a migrant child as follows—

           (d) Migratory child means a child who is, or whose parent, spouse, or guardian is,
           a migratory agricultural worker, . . . and who, in the preceding 36 months, in
           order to obtain, or accompany such parent, spouse, guardian in order to obtain,
           temporary or seasonal employment in agricultural or fishing work—
               (1) Has moved from one school district to another; . . .

According to the parents we interviewed, either a move did not occur as stated on the Certificate
of Eligibility (COE), 3 or the circumstances surrounding the move did not qualify the child for the
MEP. Moreover, the parents did not provide other information that would have qualified the
child as eligible for the MEP in 2003-2004. Parents told us that the—

           Child did not move with or to join the relative or guardian identified on the COE
           (19 children in Los Angeles USD);

           Family moved to the district 7 to 17 years ago and did not move into the district on the
           arrival date stated on the COE (7 children in the two districts);

           Family originally moved into the district 13 to 33 years ago and the arrival date on the
           COE represented when the family returned from a trip to Mexico during the winter or
           summer school break (6 children in Pajaro Valley USD);

           Family did not move during the prior 36 months (3 children in the two districts);

           Child did not move with or to join the qualifying worker, who was a parent (2 children in
           the two districts); and



2
 We could not determine the eligibility status for the other 51 children because we were either unable to locate or
contact the parents at the time of our review, or could not obtain sufficient information from the person contacted.
For seven children, we were able to contact a parent, but the parent did not provide sufficient information to verify
eligibility, did not want to be interviewed, or was not the person who was originally interviewed by the recruiter and
could not respond to some eligibility questions.
3
    The COE is the form CDE uses to document migrant child eligibility.
Final Report
ED-OIG/A09F0024                                                                          Page 4 of 27

       Child went to Mexico during the winter school break to visit a relative, who was the
       qualifying worker on the COE, and returned to her parents when the relative arrived in
       the district to do agricultural work (1 child in one district). While the relative did move
       to the district for qualifying work, the child returned to the district to attend school after
       the end of the school break rather than to enable the relative to seek qualifying work.

The COEs for the 102 children sampled included 165 siblings, who were also included in the
2003-2004 migrant child count. Based on parent interviews and records review, we determined
that 53 siblings were also ineligible because they did not make a qualifying move. The results by
district for the 102 children sampled, their 165 siblings, and in total, are shown in Attachment 1.

If our results in the two districts are representative of other districts and MEP regions, then CDE
lacks assurance that other districts and MEP regions accurately determined eligibility for
children, who were in those locations and included in the State’s 2003-2004 migrant child count.

CDE Needs to Enhance Guidance on Vacations
Versus Moves to Obtain Employment

Departmental guidance advised states of the requirements for a qualifying move and clarified
that workers who return home from a vacation or similar trip have not made a qualifying move.
The Draft Non-Regulatory Guidance issued on October 23, 2003 (Section II, Questions C1, C3,
and D12) advises—

       A move qualifies if:
          1. it is a move across school district boundaries; and
          2. it involves a change of residence; and
          3. the purpose of the worker’s move is to obtain qualifying work in
             agriculture or fishing;
          4. the purpose of the worker’s move was not to relocate on a permanent
             basis; and
          5. it occurred within the preceding 36 months.

       [A] change in residence means moving to a different school district . . . [and] may
       involve:
              a change of residence from the migrant worker’s home base to a
              temporary residence where the worker seeks or obtains qualifying work;
              or
              a change of residence from one temporary residence to another temporary
              residence where the worker seeks or obtains qualifying work; or
              a change of residence from a temporary residence back to the migrant
              worker’s home base, so long as the move back to the home base is not a
              permanent relocation and the purpose of the move back is to seek or
              obtain qualifying work in the home base.

       Workers who return home from a vacation, visiting a sick relative, or for other
       personal reasons have not made a qualifying move.
Final Report
ED-OIG/A09F0024                                                                                  Page 5 of 27

As discussed in the prior section, we found six sample children ineligible in Pajaro Valley USD
because the family did not make a qualifying move when they returned to the district from a trip
to Mexico during a school break. Parents told us that they travel to Mexico to visit relatives or
vacation during the holidays (5 children) or at the end of the school year (1 child), and do not
work there. For the six children, we determined that, while at least one parent was a seasonal
agricultural worker, the family’s home was in Pajaro Valley USD since parents told us they were
long-time residents and generally travel to Mexico every year or every other year when school is
not in session. Moreover, the family returned to the same address in the district (5 children), and
one parent had permanent, non-agricultural employment in the district (3 children). We also
found that enrollment in school was not interrupted (6 children), which could indicate that the
move was actually for vacation purposes. Consistent with the Department’s guidance and under
the regulatory definition of a migratory child, we concluded that the family’s move back to
Pajaro Valley USD was a return home from vacation and not to seek or obtain qualifying work in
an agricultural activity.

Moreover, we concluded that the six sample children described above would also be ineligible
under the State’s Identification and Recruitment (I&R) Handbook (1997). 4 To assist recruiters
in determining eligibility issues, the State’s Handbook further defines a qualifying move as a
move that may sometimes be made for “economic reasons.” The Handbook states that
“indicators [of a move for economic reasons] would be annual (or more frequent) migrations
which coincide with the ending of employment in one location, with the return timed for the
approximate beginning of employment possibilities. The move away from the community to a
community where the family can live less expensively is not in itself a ‘qualifying move.’ It
merely establishes a residence at another community from which the family moves again to seek
work.” The Handbook also states that “[r]esidence is not established when the travel is only for
the purpose of visiting, vacationing, arranging personal business matters (such as immigration
papers, settling an estate, and so forth), or for caring for ill family members or friends.” The
above cited sections of the State’s I&R Handbook do not appear to conflict with Federal
regulations or Departmental guidance.

Consistent with State procedures, district recruiters told us that they usually ask parents whether
a move occurred and, if yes, when the move occurred, where the move was from and to, who
made the move, and what type of work was sought. Unless parents volunteered additional
information, recruiters only established whether the departure to Mexico coincided with the end
of employment (or end of the agricultural season) and the return to the district was to seek
qualifying employment. For the six sample children, our parent interviews did not disclose
information to indicate, and the COEs did not contain information to explain how, the move back
to the district was for economic reasons.

The State’s I&R Handbook identifies the special conditions, or potential situations, when the
recruiter would need to probe for additional information to determine and further document
eligibility in the comments section of the COE. We found that the special conditions listed in the
State’s I&R Handbook did not address the need for additional questioning to establish whether a
move was for vacation, a visit, or reasons that would qualify the family as migrant. Had the
recruiters asked more questions and considered the timeframe for the move (and documented the

4
 At the time of our review, CDE was in the process of updating the I&R Handbook to ensure consistency with the
No Child Left Behind Act of 2001 and subsequent Federal guidance.
Final Report
ED-OIG/A09F0024                                                                                        Page 6 of 27

information on the COE), they could have more accurately established whether a qualifying
move had occurred. To ensure recruiters adhere to Federal and State policies regarding
qualifying moves, CDE should enhance the Handbook to directly address and provide recruiters
with clear decision rules regarding vacations versus moves to obtain employment as a basis for
qualifying a child for the MEP.

CDE Needs to Investigate Other Eligibility Errors

In addition to the 6 sample children in Pajaro Valley USD described above, we found the
remaining 32 sample children ineligible in the two districts due to other reasons related to a non-
qualifying move. 5 We found that CDE and the two MEP regions reviewed had internal controls
in place. Other than our concerns with travel associated with vacations being considered
qualifying moves, our review of the controls did not identify systemic weaknesses that may have
contributed to the other identified eligibility errors. State and regional controls were designed to
ensure the reasonableness, completeness, and accuracy of the eligibility information that is
recorded on the COE, entered into the statewide migrant student information system, and used to
determine the State’s migrant child count. CDE disseminated Federal criteria and guidance, as
well as State policies and guidance, to MEP regions; conducted statewide identification and
recruitment training; and reviewed regional applications and district service agreements. CDE
guidance included a basic interview pattern (in English and Spanish) that recruiters are expected
to use during parent eligibility interviews; a standard COE form (in English and Spanish) with
instructions for its completion and regional review; and guidance on the quality control
procedures that the State, regions, and districts should have in place. The two MEP regions
disseminated Federal, State, and regional guidance to recruiters; conducted regional training and
bi-monthly meetings for recruiters; required recruiters to review the COE information with the
parent; had one or more regional and/or district personnel review the COE before data entry into
the migrant student database; and conducted automated logic and completeness checks of the
data in migrant student information systems. Because of limited resources, CDE monitoring of
regional controls has been limited to a desk review of each MEP region’s quality control
procedures and, when warranted, site visits to provide technical assistance.

As part of regional quality control procedures, CDE requires MEP regions to annually
re-interview parents for a sample of COEs to verify the COE information, but did not enforce
this requirement until 2005. Regions have control over how they conduct the re-interview
process. The two MEP regions we reviewed each have had such a process in place. 6 Since
2004, the Regional Director in MEP Region 11 has selected a random sample of 50 COEs and
calls the families to verify the COE information. MEP Region 10 has conducted regional

5
  As listed in Attachment 1, the other reasons for ineligibility were non-qualifying moves due to: child not moving
with or to join the qualifying worker who was a relative or guardian (19 children); family moving to the district
years ago and not moving on the COE arrival date (7 children); family not moving during the prior 36 months (3
children); child not moving with or to join the qualifying worker who was a parent (2 children); and child going to
Mexico during the winter school break to visit a relative, who was the qualifying worker on the COE, and returning
to her parents when the relative arrived in the district to do agricultural work (1 child).
6
 We interviewed the parents of six children, who were subject to the regional re-interview process in MEP
Region 11, and came to the same conclusion that the children were eligible. In MEP Region 10, we were able to
determine the eligibility status for one child, who the regional re-interview found eligible and we found ineligible
because the parent told us the child did not move with or to join the relative shown as the qualifying worker on the
COE.
Final Report
ED-OIG/A09F0024                                                                        Page 7 of 27

re-interviews for at least 10 years, and its process entails one of every 20 COEs submitted by
member districts and processed through the region being selected for quality control review, and
a regional recruiter re-interviewing the parent by telephone or home visit. Based on the re-
interview results, regional administrators in both regions provide feedback to recruiters and take
steps to remove ineligible children from the migrant student database.

We interviewed the recruiters, who prepared most of the COEs reviewed and continued to
perform recruiting activities at the time of our review. We found that the recruiters had received
formal and on-the-job training to determine and document migrant child eligibility, and appeared
to be implementing CDE and regional policies and procedures. While they seemed
knowledgeable and experienced at the time of our review, the two recruiters in Los Angeles USD
had less than one year of experience when they prepared many of the COEs we reviewed.
Although the recruiters received training and accompanied a more experienced recruiter during
the first few weeks on the job, their inexperience may have contributed to the eligibility errors
we identified.

Despite the CDE and regional controls in place, including regional re-interviewing of parents to
confirm COE information, we found that ineligible children were included in the State’s
2003-2004 migrant child count. In particular, we found that, in every case where we were able
to determine the child’s eligibility status in Los Angeles USD and the COE stated that the child
moved with a relative or guardian (19 children), parents told us that the child did not make the
move. Parents for nearly all of the 19 children confirmed that the relative or guardian lives at the
move location shown on the COE and, in most cases, also stated that the person did agricultural
work and family members visited relatives at that location. To ensure that only eligible children
participate in the MEP, CDE needs to investigate the situation regarding the 19 children in
Los Angeles USD and the other eligibility errors we identified in the two districts (listed in
Attachment 1), and address any weaknesses in statewide internal controls that may have caused
the errors.

Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education require
CDE to —

1.1    Provide more detailed guidance and training, consistent with Federal regulations and
       guidance, regarding vacations versus moves to obtain qualifying employment as a basis
       for determining a child eligible for the MEP, including the need for recruiters to ask
       additional questions, consider the timeframe in which the move took place, and add
       explanatory information on the COE to determine and document eligibility in these
       circumstances; and ensure that MEP regions and recruiters implement the guidance.

1.2    Following implementation of Recommendation 1.1, review and identify all the COEs for
       the children in Pajaro Valley USD included in the 2003-2004 migrant child count, as well
       as in subsequent years’ counts, where the move may have been a return trip from Mexico
       during a school break. Indicators of such a move include—
               COE data indicating that the child moved from Mexico to the district during the
               winter or summer school break;
Final Report
ED-OIG/A09F0024                                                                           Page 8 of 27

                current and prior COE data indicating that the child has lived at the same address
                within the district; and/or
                school enrollment data indicating that enrollment in school was not interrupted
                during the move period.
         Re-interview the parents to determine whether the move was actually to obtain qualifying
         employment (not vacation) as a basis for determining the child eligible for the MEP.

1.3      Review and identify all the COEs in Los Angeles USD where a relative or guardian
         (non-parent) is shown as the qualifying worker for the children included in the 2003-2004
         migrant count, as well as subsequent years’ counts; and re-interview parents to determine
         whether the children actually made the move and met the MEP definition of an eligible
         child. To ensure that recruiters are currently making appropriate eligibility
         determinations, also include in this effort all the COEs completed during fiscal year
         2005-2006 where a relative or guardian is shown as the qualifying worker. If re-
         interviewing finds that improper eligibility determinations were made during 2005-2006,
         take appropriate corrective action to address the cause of the errors.

1.4      Review the quality control practices of each MEP region in the State, including the
         regional re-interviewing methodology and results, to (1) ensure that the error patterns
         identified during our audit are not also occurring in other regions; (2) identify other error
         patterns or systemic weaknesses; (3) take action to correct any identified weaknesses, if
         needed; and (4) identify any additional ineligible children included in the 2003-2004
         migrant count, as well as in subsequent years’ counts.

1.5      Adjust the State’s 2003-2004 migrant child count and, if applicable, subsequent years’
         counts, for the (1) 91 children (38 sampled children and their 53 siblings) found ineligible
         based on our review and (2) other children found ineligible from the corrective action
         taken in response to Recommendations 1.2, 1.3, and 1.4 above; and return to the
         Department any funds expended for ineligible children.

1.6      Investigate the other eligibility errors we identified for the children found ineligible in the
         two districts for reasons other than vacation-related moves, identify weaknesses in State
         and regional internal controls that may have caused the errors, and implement any needed
         changes to the controls on a statewide basis to ensure that only eligible children are
         included in future migrant child counts reported to the Department.

CDE Comments and OIG Response

In its comments, CDE provided three general comments about its identification and recruitment
procedures and the 2003-2004 migrant child count—

      1. Parent and Recruiter Certifications. CDE stated that MEP regional offices and the school
         districts acted in good faith when conducting eligibility interviews and obtaining parent
         or guardian signatures certifying that the COE information was accurate to the best of
         their knowledge. Also, recruiter signatures on the COE affirmed that the parent or
         guardian certified the information.
Final Report
ED-OIG/A09F0024                                                                      Page 9 of 27

   2. Elapsed Timeframe. CDE stated that our audit focused on identification and recruitment
      procedures used as the basis to identify and serve eligible migrant students in the
      2003-2004 school year. CDE noted that the COEs we reviewed pertained primarily to
      the 2002-2003 school year or earlier (up to almost four years prior to our fieldwork).
      Additionally, a number of families move in and out of the local area, which further
      complicates the effect over a multiyear period. CDE commented that the number of
      missing cases (children for whom we could not determine eligibility) among our sample
      of families could have resulted in significantly different results since there was no
      protocol to track their movement. In its comments, CDE noted that, when it followed up
      on our sample results [in Los Angeles USD]: (a) CDE did not make contact with some
      families even with repeated attempts; (b) a significant number of families declined CDE’s
      request for a revisit and re-interview; (c) there are legitimate problems associated with
      accurate recall of historical events, such as moving from one location to another, or the
      presence of extended family members and others in the home; and (d) some families may
      be reluctant to divulge information that they suspect is associated with their immigration
      status.

       OIG Response. We note that our report does not address the 51 children in our sample
       for whom we could not determine the child’s eligibility status. We recognize that some
       parents may not want to be re-interviewed or may not provide sufficient information to
       verify eligibility, which was our experience for 7 of the 51 children (as described in
       footnote 2 in our report). Our report only addresses the eligibility status of the other 51
       sample children where we completed a parent interview and had sufficient information to
       make a status determination. Thus, the “missing cases” cited by CDE had no affect on
       our results for these children—that is, the 38 sample children found ineligible would still
       be ineligible even if we could have determined the eligibility status for more than 51
       children. Although there can be difficulties associated with re-interviews, in our
       judgment, as well as that of the Department’s OME, re-interviews are an appropriate
       method to test the validity of eligibility determinations made by agencies participating in
       the MEP.

   3. Current Procedures. CDE stated that its current procedures for completing COEs have
      been improved over those used in the 2002-2003 school year, and that many of our
      recommendations have already been addressed and incorporated as standard procedures
      at both the State and local levels.

CDE also commented on each of our recommendations and described the corrective actions
already taken or planned. Where CDE disagreed or partially concurred with a recommendation,
we provide our response below. We have not modified the recommendations based on CDE’s
comments.

       Recommendation 1.1. CDE concurred with the recommendation and listed a number of
       related activities that have been conducted or are in process. CDE provided additional
       information about statewide identification and recruitment training; the State
       re-interviews that were conducted in response to the Department’s OME request; and
       ongoing efforts to update the State’s I&R Handbook, which will address the issues
       identified in this recommendation. Additionally, CDE plans to post frequently asked
       questions and answers on the Web to compliment the Handbook; establish and implement
Final Report
ED-OIG/A09F0024                                                                   Page 10 of 27

     policies and procedures instructing recruiters to ask follow-up questions and to document
     responses on the COE, when families report a trip of 30 days or less; and establish
     policies and procedures to validate COEs throughout the State on an annual basis by
     using statistical sampling and ensuring that all regions and local educational agencies
     (LEAs) participate in the re-interview process.

     Recommendations 1.2 and 1.3. CDE partially concurred with the two recommendations.
     CDE stated that it would re-interview a sample of COEs in the Pajaro Valley USD and in
     the Los Angeles USD, and require the LEAs to remove from their eligibility lists any
     children determined not to be legally qualified for the MEP. However, instead of relying
     on historical (2002-2003) information from time-elapsed re-interviews, CDE suggested
     selecting the Pajaro Valley USD sample from the 2006-2007 list of migrant students, and
     the Los Angeles USD sample from the 2006-2007 list where data indicate that the
     qualifying move involved a third party who was not a parent or guardian. CDE referred
     to its general comments above for its rationale for this approach.

     OIG Response. We still recommend that CDE focus the Pajaro Valley USD
     re-interviews on the COEs where the move involved a trip from Mexico during a school
     break. If CDE does sample from the universe of migrant children, it should ensure that
     the re-interview sample includes adequate representation of COEs with our listed
     attributes to assure that the problem we found does not continue. CDE’s suggestion to
     select the two districts’ re-interview samples from the 2006-2007 list will not address the
     fact that the State’s 2003-2004 migrant count included ineligible children.

     Recommendation 1.4. CDE partially concurred with the recommendation. CDE stated
     that it would review the quality controls practices of MEPs throughout the State and
     provide any necessary guidance to ensure that identified deficiencies or system
     weaknesses are corrected and prevented in the future. However, CDE reiterated its belief
     that significant time-elapsed information should not be used to identify ineligible children
     pertaining to the 2003-2004 eligibility determinations.

     OIG Response. While we recognize the difficulties and complexities associated with re-
     interviewing, we continue to recommend that CDE take steps to assure that other MEP
     regions accurately determined eligibility for children, who were in those locations and
     included in the State’s 2003-2004 and subsequent years’ migrant counts.

     Recommendation 1.5. CDE disagreed with our recommendation to adjust the State’s
     2003-2004 migrant child count, and subsequent years’ counts, for the children that our
     review had deemed ineligible. CDE expressed its belief that, at the time, it was
     reasonable to rely on the signed parent certifications attesting to the COE information in
     determining eligibility, and continued to question the reliance on time-elapsed interviews.
     CDE commented that the significant elapsed timeframes between the eligibility
     determination dates and our re-interviews could understandably result in differing
     information for numerous reasons. As an example, CDE noted its attempt to conduct
     follow-up interviews related to our Los Angeles USD sample results, and commented
     that it had obtained the same or similar responses as the OIG in only 10 cases. Based on
Final Report
ED-OIG/A09F0024                                                                                         Page 11 of 27

         summary documentation provided subsequent to its comment letter, 7 CDE interviewed a
         parent for 14 of the 22 sample children we had found ineligible, and it reported 9 of the
         14 children as eligible and 5 children as having conflicts with the original certification. 8

         OIG Response. In our judgment, and as expressed in the Department’s OME nationwide
         re-interviewing request in July 2004, re-examination of the correctness of prior migrant
         child eligibility determinations is vital to ensuring the overall integrity of the MEP. We
         recognize that the passage of time can result in some differing information from families,
         as evidenced by the parent interviews from our review and CDE’s subsequent follow-up
         efforts in Los Angeles USD. However, we note that the 10 cases CDE mentioned as
         having obtained the same or similar information as the OIG pertained to information
         about a move, and comprised most of the 14 children for whom CDE had completed a
         follow-up interview. Nevertheless, our review in two districts and CDE’s follow-up in
         one district identified children, for whom parent interviews indicate that the child was not
         eligible for the MEP. Thus, ineligible children were included in the State’s 2003-2004
         migrant count and may have inappropriately received services supported by MEP funds.

         While its comments only addressed the children our review found ineligible in
         Los Angeles USD, we still recommend that CDE adjust the State’s 2003-2004 and
         subsequent years’ migrant counts, and return to the Department any funds expended, for
         these and any additional children found ineligible from the corrective actions taken in
         response to Recommendations 1.2, 1.3, and 1.4.

         Recommendation 1.6. CDE partially concurred with the recommendation. CDE
         disagreed that all the errors identified by our review are in fact errors of eligibility
         determinations. However, CDE stated that it has implemented ongoing identification and
         recruitment protocols with appropriate internal controls to address any necessary
         changes. In addition, CDE is collaborating with the MEP regions and WestEd (CDE
         contractor) to update the I&R Handbook and other training materials.

         OIG Response. After reviewing CDE’s comments, we have not changed our finding that
         CDE included ineligible children in the State’s 2003-2004 migrant count. Having taken
         steps to follow-up on our re-interview results in Los Angeles USD, we recommend that
         CDE similarly investigate the eligibility errors we found in Pajaro Valley USD (listed in
         Attachment 1) and determine if the errors we found in the two districts were caused by
         internal control weaknesses at CDE or the MEP regions and districts reviewed. For
         example, CDE did not comment specifically about the 19 children we had found
         ineligible in Los Angeles USD where parents told us that the child did not move with the
         non-parent, qualifying worker. However, we note from our parent interviews and CDE’s
7
 In its comments, CDE indicated that it had attempted to re-interview 24 families where we had questioned the
accuracy of the original COEs. CDE subsequently corrected the total to 22 families.
8
 In two of the nine cases it reported as eligible, CDE provided follow-up information about the circumstances
surrounding a move, which was not addressed in our parent interviews, and could support a status determination of
eligible. CDE stated that it did not consider the five children reported as having conflicts with the original COE to
be ineligible because it is unclear which information is accurate especially with the lapse of time, and the belief that
CDE acted in good faith when basing the initial eligibility determination on information that families had provided
and certified. Because we have no basis to judge the validity of CDE’s follow-up activities, we have not changed
our eligibility determinations for any of the 22 children we found ineligible in our Los Angeles USD sample.
Final Report
ED-OIG/A09F0024                                                                       Page 12 of 27

       follow-up information that the person making a move (qualifying worker) appeared to
       have actually been a parent in most cases (i.e., COE information was in error). Although
       parents did not provide other information that would qualify the child as eligible for the
       MEP when we interviewed them, it appears that recruiters had entered incorrect
       information on the COE by not identifying a parent as the qualifying worker who made a
       move for most of the 19 children. We recommend that CDE address this possible control
       weakness and any other identified weaknesses on a statewide basis.

We have not modified the finding, except to make some clarifying edits and to change the reason
for ineligibility for one sample child and her two siblings. In the draft report, we had reported
one child in the Pajaro Valley USD sample to be ineligible because the qualifying work was not
a principal means of livelihood. Upon further review, we re-classified the reason as the child not
making a qualifying move, and revised the finding and Attachment 1 accordingly.




                   OBJECTIVE, SCOPE, AND METHODOLOGY


The objective of audit was to determine whether CDE and selected MEP regions within the State
of California have systems in place to ensure the accurate count of children eligible to participate
in the MEP. Our review covered the State’s 2003-2004 migrant child count. Another audit
objective was to assess State re-interviewing efforts in response to the Department’s OME
nationwide request. Information on the State re-interviewing sampling plan and re-interviewing
results will be provided in a report to the Department.

To address the objective regarding the child count, we interviewed CDE officials and staff
responsible for implementing the MEP in California. We also interviewed CDE contractor staff
at WestEd, which manages the statewide Migrant Student Information Network (MSIN). We
assessed State policies, procedures, and guidance provided to MEP regions and recruiters to
determine whether internal controls ensured the eligibility of individual migrant children and the
reliability of the 2003-2004 migrant child count reported to the Department.

To evaluate MEP region procedures, we selected Los Angeles County Office of Education (MEP
Region 10) and Pajaro Valley USD (MEP Region 11), which are respectively responsible for
administering the MEP in Los Angeles USD and Pajaro Valley USD. Based on statewide
2003-2004 migrant count data by district, Pajaro Valley USD had the most migrant children in
the State and is located in an agricultural area, and Los Angeles USD had the most migrant
children located in an urban area.

At each MEP region, we reviewed procedures and interviewed program managers and staff
responsible for overseeing regional I&R activities. We also reviewed district procedures and
interviewed I&R administrators at Los Angeles USD. In each MEP region, we interviewed
district recruiters, who were responsible for determining migrant child eligibility for the children
selected for review, and regional I&R personnel responsible for performing regional
re-interviews. We evaluated regional and district procedures to determine whether internal
Final Report
ED-OIG/A09F0024                                                                                     Page 13 of 27

controls ensured migrant child eligibility and reliable reporting of migrant child count data to
CDE.

To further assess controls and conduct parent interviews, we selected 102 migrant children for
review by stratified randomly sampling of the State’s 2003-2004 migrant child count (55 of the
4,785 children in Los Angeles USD and 47 of the 14,801 children in Pajaro Valley USD). We
stratified the universe for each district by the child’s inclusion or exclusion from State or
regional re-interview activities in order to compare re-interviewing results with our results. 9

                  Table 2. Stratified Random Sample Selection Methodology by District
                                                                                                      OIG
                                                                             Universe      Sample Determined
                                                                               Size         Size   Eligibility
                                                                                                   Status (a)
    Los Angeles USD Universe (2003-2004 Migrant Child Count)
      Strata 1 - Child was selected for the State re-interview sample
                                                                                     5         2             2
      and a State re-interview was completed.
      Strata 2 - Child was selected for the State re-interview sample
                                                                                     4         2             0
      and a State re-interview was not completed.
      Strata 3 - Child was selected for the State-generated regional
      re-interview sample and a regional re-interview was                          28          3             1
      completed.
      Strata 4 - Child was not selected for either the State re-
      interview sample or the State-generated regional re-interview
                                                                                4,748         48            22
      sample (i.e., all other children in the Los Angeles USD
      universe).
                                               Los Angeles USD Totals           4,785         55            25
    Pajaro Valley USD Universe (2003-2004 Migrant Child Count)
      Strata 1 - Child was selected for the State re-interview sample
                                                                                   11          2             2
      and a State re-interview was completed.
      Strata 2 - Child was selected for the State re-interview sample
                                                                                   13          2             2
      and a State re-interview was not completed.
      Strata 3 - Child was not selected for the State re-interview
      sample (i.e., all other children in the Pajaro Valley USD                14,777         43            22
      universe).
                                              Pajaro Valley USD Totals         14,801        47             26
                     Los Angeles USD and Pajaro Valley USD Totals              19,586       102             51
    (a) Completed parent interview and determined sampled child’s migrant eligibility status.

We determined that the sampled children had 165 siblings, who were included in the State’s
2003-2004 migrant child count (84 siblings in Los Angeles USD and 81 siblings in Pajaro Valley
USD).


9
  For each district, CDE’s contractor (WestEd) provided data files containing the universe of children, who were
included in the State’s 2003-2004 migrant child count reported to the Department. The files included data
identifying the children, who were included in the State re-interview sample and, where applicable, State-generated
regional re-interview samples.
Final Report
ED-OIG/A09F0024                                                                                  Page 14 of 27

From a list of 76 children for whom MEP Region 11 had performed its own re-interviewing of
the 2003-2004 count, 10 we randomly selected eight children and determined the eligibility status
for seven children to assess regional re-interviewing efforts. Whereas MEP Region 10 had
performed re-interviewing for a CDE-generated sample of migrant children, MEP Region 11 had
selected its own sample.

We attempted to locate and interview a parent for each sampled child selected for review. We
interviewed parents (and a grandparent in one case) in Pajaro Valley USD in October 2005, and
in Los Angeles USD in November 2005. We also reviewed students’ school enrollment history,
district calendars, and prior COE data, if available, to corroborate information on the COE and
from parent interviews. We relied on the information provided by parents and our document
reviews to verify information included on the COE, which qualified the child for inclusion in the
State’s 2003-2004 migrant child count, and to determine whether the sampled child and siblings
listed on the COE were eligible to participate in the MEP.

We assessed the reliability of computer-generated data at CDE and concluded that the data were
sufficiently reliable to use for identifying our sampling universes and selecting our sample.
Specifically, we assessed the statewide database (MSIN) that CDE used to report the 2003-2004
migrant child count to the Department by verifying electronic COE information in MSIN with
the original, signed COE at the MEP region for the sampled children and their siblings, where
applicable, and confirming their inclusion in the 2003-2004 count; confirming that the WestEd-
provided data files for each selected district matched the statewide 2003-2004 migrant child
count for the district; and comparing migrant child counts for each district with counts generated
from regional and district migrant student databases where available, and district student
information systems where applicable. As disclosed in the finding, our review of sampled
children found that the MSIN database included ineligible children.

We performed our fieldwork at CDE, MEP Region, and district offices in Sacramento, Downey,
Los Angeles, and Watsonville, California. We held an exit briefing with CDE officials on
April 27, 2006. Our audit was performed in accordance with generally accepted government
auditing standards appropriate to the scope of the review described above.




                                ADMINISTRATIVE MATTERS


Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken, including the recovery of funds, will be made by
the appropriate Department of Education officials, in accordance with the General Education
Provisions Act.




10
  The 76 children were included in, and were not mutually exclusive of, the Pajaro Valley USD universe of 14,801
children used for the stratified random sample.
Final Report
ED-OIG/A09F0024                                                                      Page 15 of 27

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on this audit:

                              Henry Johnson, Assistant Secretary
                              Office of Elementary and Secondary Education
                              U.S. Department of Education
                              400 Maryland Avenue, SW
                              Washington, DC 20202

It is the policy of the U. S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.


                                             Sincerely,

                                             /s/ Beverly Dalman for

                                             Gloria Pilotti
                                             Regional Inspector General for Audit


Attachments
Final Report
ED-OIG/A09F0024                                                                         Page 16 of 27

                              Attachment 1: Results by District

           Table 3. Results of Children Selected for Review and their Siblings by District
                                                                 Los Angeles     Pajaro
                                                                                             Total
                                                                    USD        Valley USD
Children Selected for Review
Sample Size                                                          55            47         102
Determined Eligibility Status                                        25            26          51
Reason for Ineligibility – No Qualifying Move
    Child did not move with or to join the qualifying
                                                                     19             0          19
    worker, who was a relative or guardian
    Family moved to the district years ago and did not
                                                                      1             6           7
    move on the COE arrival date
    Family moved to the district years ago and the COE
    arrival date was when they returned from a trip to                              6           6
    Mexico during the winter or summer school break
    Family did not move during prior 36 months                        1             2           3
    Child did not move with or to join the qualifying
                                                                      1             1           2
    worker, who was a parent
    Child went to Mexico during the winter school break
    to visit a relative, who was the qualifying worker on
    the COE, and returned to her parents when the
                                                                      0             1           1
    relative arrived in the district to do agricultural work;
    child’s return was not to enable the relative to seek
    qualifying work
 Total Not Eligible                                                  22            16          38
Siblings of Sampled Children
Number of Siblings                                                   84            81         165
Determined Eligibility Status                                        37            36          73
Reason for Ineligibility – No Qualifying Move
     Child did not move with or to join the qualifying
                                                                     27             0          27
     worker, who was a relative or guardian
     Family moved to the district years ago and did not
                                                                      1             7           8
     move on the COE arrival date
     Family moved to the district years ago and the COE
     arrival date was when they returned from a trip to                             9           9
     Mexico during the winter or summer school break
     Family did not move during prior 36 months                       1             3           4
     Child did not move with or to join the qualifying
                                                                      2             1           3
     worker, who was a parent
     Child went to Mexico during the winter school break
     to visit a relative, who was the qualifying worker on
     the COE, and returned to her parents when the
                                                                      0             2           2
     relative arrived in the district to do agricultural work;
     child’s return was not to enable the relative to seek
     qualifying work
Total Not Eligible                                                   31            22          53
Final Report
ED-OIG/A09F0024                                                                        Page 17 of 27

           Table 3. Results of Children Selected for Review and their Siblings by District
                                                                Los Angeles     Pajaro
                                                                                             Total
                                                                   USD        Valley USD
Children Selected for Review and their Siblings
Number of Children Selected for Review                             139           128         267
Determined Eligibility Status                                       62            62         124
Reason for Ineligibility – No Qualifying Move
    Child did not move with or to join the qualifying
                                                                    46             0          46
    worker, who was a relative or guardian
    Family moved to the district years ago and did not
                                                                     2            13          15
    move on the COE arrival date
    Family moved to the district years ago and the COE
    arrival date was when they returned from a trip to                            15          15
    Mexico during the winter or summer school break
    Family did not move during prior 36 months                       2             5           7
    Child did not move with or to join the qualifying
                                                                     3             2           5
    worker, who was a parent
    Child went to Mexico during the winter school break
    to visit a relative, who was the qualifying worker on
    the COE, and returned to her parents when the
                                                                     0             3           3
    relative arrived in the district to do agricultural work;
    child’s return was not to enable the relative to seek
    qualifying work
Total Not Eligible                                                  53            38          91
Final Report
ED-OIG/A09F0024                                               Page 18 of 27




           Attachment 2: CDE’s Comments on the Draft Report
Gloria
Page 2


                                   September 7, 2006




Gloria Pilotti, Regional Inspector General for Audit
U.S. Department of Education
Office of Inspector General
501 I Street, Suite 9-200
Sacramento, CA 95814

Dear Ms. Pilotti:

This is the California Department of Education’s (CDE) response to the U.S.
Department of Education (ED), Office of Inspector General (OIG) draft audit report,
entitled California Department of Education’s Migrant Education Program concerning
the CDE’s fiscal year 2003-04 migrant child count.

Preceding our responses to the OIG’s findings and recommendations, the CDE has
comments in general to provide clarity and prospective to the report.

General Comments

   1. Parent and Recruiter Certifications. Migrant Education Program (MEP)
      regional offices and the school districts acted in good faith when conducting
      eligibility interviews and obtaining parent or guardian signatures certifying that
      the Certification of Eligibility (COE) information used to determine eligibility was
      accurate to the best of their knowledge. Also, in the presence of the parent or
      guardian, the recruiter, or the local educational agency (LEA) representative,
      signed the COE affirming that the parent or guardian certified the information.

   2. Elapsed Timeframe. The audit focused on the CDE’s identification and
      recruitment procedures used as the basis to identify and serve eligible migrant
      students in the 2003-04 school year. The COEs that were reviewed for the
      selected migrant students pertained primarily to the 2002-03 school year or
      earlier, up to almost four years prior to the OIG’s fieldwork. Additionally, a
      number of families move in and out of the local area (school district and region)
      thereby further complicating
      the effect over a multiyear period. Since there was no protocol to track the
      movement of these families, the number of missing cases among the sample of
      families selected for re-interviews could have resulted in significant differing
      results. For example, in following up with the OIG’s re-interviews, the CDE notes
      that:
Gloria Pilotti, Regional Inspector General for Audit
September 7, 2006
Page 2


       a. Even with repeated attempts, no contact was made with a number of families.
          Perhaps the families have moved out of the area recently or moved to
          another location within the school district with a different telephone and
          address. In other cases, the families may be on a trip. Additionally, some
          families, for a variety of reasons, could have chosen not to respond to a
          government official such as a representative from the CDE or OIG.

       b. A significant number of families declined a request for a revisit and re-
          interview. In other cases, the children from these families are no longer
          participating in the MEP. In some cases, the migrant children are no longer of
          school age, or there could be a marked lack of interest and incentive on the
          part of these families to agree to share personal information with government
          officials.

       c. Given the complex living situations of many migrant families, there are
          various legitimate problems associated with the accurate recall of historical
          events such as moving from one location to another or the presence of
          extended family members and others in the home.

       d. Understandably, some migrant families may even be reluctant to divulge
          information that they suspect is associated with their immigration status. This
          concern may affect the accuracy of information shared with school officials,
          the OIG, and the CDE, especially in cases that involve travel to Mexico or
          where there are requests for repeated visits to the family for the same or
          similar purposes.

   3. Current Procedures. The CDE’s current identification and recruitment
      procedures used to complete COEs have been improved over those used in the
      2002-03 school year, and many of the OIG recommendations have already been
      addressed and incorporated as standard procedures in identification and
      recruitment at both the state and local levels.


The CDE’s Responses to OIG’s Recommendations

Recommendation 1.1 - Provide more detailed guidance and training, consistent with
Federal regulations and guidance regarding vacations versus moves to obtain
employment as a basis for qualifying a child for the MEP, including the need for
recruiters to ask additional questions, consider the timeframe in which the move took
place, and add explanatory information on the Certificate of Enrollment (COE) to
Gloria Pilotti, Regional Inspector General for Audit
September 7, 2006
Page 3


determine and document eligibility in these circumstances; and ensure that MEP
regions and recruiters implement the guidance.

CDE Response

Concur. The CDE has or is in the process of conducting the following activities related
to this recommendation:

   A. In the 2005-06 school year, the CDE sponsored a statewide forum for the
      regional recruiters of the Migrant Education Program. The central event of the
      forum was a comprehensive training on identification and recruitment
      procedures. Another forum is scheduled for December 6-7, 2006. The upcoming
      forum will also contain a Trainer of Trainers component.

   B. In the 2005-06 school year, the CDE conducted, based on a representative
      sample, 627 re-interviews of migrant families for the purpose of verifying the
      original COE findings. Results indicated that the statewide error rate was just
      over 5 percent and well under the national average for states conducting
      statewide re-interview initiatives (see Attachment I - Copy of letter from Jack
      O’Connell, State Superintendent of Public Instruction, to Henry L. Johnson,
      Assistant Secretary of Education dated February 14, 2006).

   C. The CDE has undertaken the development of a new edition of the statewide
      Identification and Recruitment Handbook. The final draft is currently being
      prepared and is expected to be published by November 1, 2006. The issues
      identified in Recommendation 1.1 will be addressed in this document.

   D. As a compliment to the Identification and Recruitment Handbook, the CDE will
      also develop and post on the Web, a document that contains the most frequently
      asked questions and answers associated with identification and recruitment
      issues.

   E. The CDE plans to establish, implement, and include in the Identification and
      Recruitment Handbook and other related publications the following policies and
      procedures:

       •   Instruct recruiters to employ a series of follow up questions whenever migrant
           families report a trip with duration of 30 days or less. The instructions will
           indicate that the family’s responses to the follow up questions in these cases
           be documented on the COE.
Gloria Pilotti, Regional Inspector General for Audit
September 7, 2006
Page 4


       •   The CDE will establish procedures to validate the COEs of migrant families
           throughout the state on an annual basis. Samples will be taken in a
           statistically appropriate matter with the assistance of WestEd. Procedures will
           insure that all regions and LEAs will participate in the re-interview process.


Recommendation 1.2 - Following implementation of Recommendation 1.1, review and
identify all the COEs for children in Pajaro Valley USD included in the 2003-2004
migrant child count, as well as in subsequent years’ counts, where the move involves a
trip from Mexico during a school break. Indicators of such a move include:

       •   COE data indicating the child moved from Mexico to the district during the
           winter or summer school break;

       •   Current and prior COE data indicating that the child has lived at the same
           address within the district; and or

       •   School enrollment data indicating that enrollment in school was not
           interrupted during the move.

Re-interview the parents to determine whether the move was actually to obtain
employment (not vacation) as a basis for qualifying the child for the MEP.

CDE Response

Partially Concur. The CDE will re-interview a sample of COEs in the Pajaro Valley USD,
and require that the LEA remove from their eligibility list any children determined not to
be legally qualified for participation in the MEP. However, instead of relying on historical
(2002-03) information obtained from time-elapsed re-interviews, the CDE suggests
selecting a sample of COEs from the 2006-07 list of eligible migrant students. The
rationale for this procedure is explained in CDE’s General Comments above.

Recommendation 1.3 - Review and identify all the COEs in Los Angeles USD where a
relative or guardian (non-parent) is shown as the qualifying worker for the children
included in the 2003-04 migrant count, as well as subsequent years’ counts; and re-
interview parents to determine whether the children actually made the move and met
the MEP definition of an eligible child. To ensure that recruiters are currently making
appropriate eligibility determinations, also include in this effort all the COEs completed
during the fiscal year 2005-06 where a relative or guardian is shown as the qualifying
worker. If re-interviewing finds that improper eligibility determinations were made during
2005-06, take appropriate corrective action to address the cause of the errors.
Gloria Pilotti, Regional Inspector General for Audit
September 7, 2006
Page 5


CDE Response

Partially Concur. The CDE will re-interview a sample of COEs in the Los Angeles USD,
and require that the LEA remove from their eligibility list any children determined not to
be legally qualified for participation in the MEP. However, instead of relying on historical
(2002-03) information obtained from time-elapsed re-interviews, the CDE suggests
selecting a sample of COEs from the 2006-07 list of eligible migrant students where
data indicates that the qualifying move involved a third party who was not a parent or
guardian of the children in question. The rationale for this procedure is explained in
CDE’s General Comments above.

Recommendation 1.4. - Review the quality control practices of each MEP region in the
State, including the regional re-interviewing methodology and results to (1) ensure that
the error patterns identified during our audit are not also occurring in other regions; (2)
identify other error patterns or systemic weaknesses; (3) take action to correct any
identified weaknesses, if needed; and (4) identify any additional ineligible children
included in the 2003-04 migrant count, as well as in subsequent years’ counts.

CDE Response

Partially Concur. The CDE will review the quality control practices of MEPs throughout
the State and provide any necessary guidance to ensure that identified deficiencies or
system weaknesses are corrected and prevented in the future. However, the CDE does
not believe that significant time-elapsed information should be used to identify ineligible
children pertaining to the 2003-04 eligibility determinations.

Recommendation 1.5. - Adjust the State’s 2003-04 migrant child count and, if
applicable, subsequent years’ counts, for the 91 children (38 sampled children and their
53 siblings) found ineligible based on our review from the corrective action taken in
response to Recommendations 1.2, 1.3, and 1.4 above; and return to the Department
any funds expended for ineligible students.

CDE Response

Disagree. The CDE does not concur that the State’s 2004-04 migrant child count, and
subsequent years’ counts, for children deemed ineligible based on the OIG’s review be
adjusted. As explained in the CDE’s General Comments and responses above, the
CDE obtained signed parent certifications attesting to the information contained in the
COEs. The CDE believes that, at the time, it was reasonable to rely on the certified
COE information in determining eligibility.
Gloria Pilotti, Regional Inspector General for Audit
September 7, 2006
Page 6


Additionally, the CDE believes that the significant elapsed timeframes between the
dates of eligibility determination and the OIG’s re-interviews could understandably result
in differing information for numerous reasons. For example, during the period of June
26-28, 2006, a CDE team of three Migrant Education consultants traveled to Los
Angeles with the purpose of re-interviewing 24 families where the OIG questioned the
accuracy of the original COEs based on re-interviews conducted in November 2005. A
summary of CDE’s experience is provided below:

   •   Five families had moved out of the Los Angeles area and no follow up was
       possible.

   •   Three families were not interviewed because a contact could not be made.

   •   Two families were not interviewed because of scheduling problems.

   •   Nine families reported that the children did make a move on the date indicated by
       the COE. However, the children were accompanied by a parent (or in one case
       an older brother) and not by a third party, non-parent, as indicated on the original
       COE. In at least three cases, these families reported that the third party had lived
       with the family during some period in and around the date of the original COE. In
       at least three cases, the families expressed concern over their own inability to
       recall specific dates and events that occurred in the past.

   •   Four families indicated that the children made the move on the date indicated on
       the COE and were accompanied not only by the person indicated in the COE, but
       also by the parents or guardians. The family signed an affidavit to this effect on
       the date of the CDE’s revisit.

   •   Only one family reported that they did not make a move on the date indicated by
       the original COE.

Based on the CDE’s re-interviews of the 24 cases involved, the CDE obtained the same
or similar response as the OIG in only 10 cases. Furthermore, in the ten cases
aforementioned, the CDE notes that several of these families also had reservations
concerning their responses. Therefore, the CDE continues to question the reliance on
the time-elapsed re-interviews, and believes that the certified information on the COEs
was a reasonable basis for determining eligibility.

Recommendation 1.6. - Investigate the other eligibility errors to identify weaknesses in
State and regional internal controls and implement any needed changes to the controls
Gloria Pilotti, Regional Inspector General for Audit
September 7, 2006
Page 7


to ensure that only eligible children are included in future migrant child counts reported
to the Department.

CDE Response

Partially Concur. The CDE does not concur that all the errors identified by the OIG are
in fact errors in eligibility determinations. However, the CDE has implemented on-going
identification and recruitment protocols with appropriate internal controls to address any
necessary changes. Additionally, the CDE, in collaboration with the MEP regions and
WestEd, is updating the Identification and Recruitment Handbook and other training
materials to be used as the basis for the statewide Migrant Education Identification and
Recruitment Forum and Trainer of Trainers session scheduled for December 6-7, 2006.

If you have any questions regarding CDE’s response, please contact Ernesto Ruiz,
Administrator, Migrant, Indian, and International Education Office, at (916) 319-0190.

Sincerely,



GAVIN PAYNE
Chief Deputy Superintendent of Public Instruction

GP:ck
Attachment
                                                                                            Attachment
                                                                                            Page 1 of 2




                                     February 14, 2006




Henry L. Johnson, Assistant Secretary
U.S. Department of Education
Office of Elementary and Secondary Education
400 Maryland Avenue S.W.
Washington, DC 20202

Dear Mr. Johnson:

Thank you for your letter regarding California's participation in a voluntary initiative to re-
examine the eligibility of migrant children. I appreciate you taking the time to write. I
understand that the Office of Migrant Education first sent out this voluntary initiative to
Re-Examine Migrant Child Eligibility Determinations with recommended procedures for
State Educational Agencies to follow. Although this federal initiative was voluntary,
California complied as if it was mandatory and followed all the recommended procedural
steps as outlined in the original letter announcing the initiative.

For instance, the procedural steps recommended that we consult with a sampling expert
to design a random sample of migrant children to re-interview. We complied and
developed a sample plan to re-interview 627 families, instead of the 384 recommended
by the Office of Migrant Education. Also, the procedural steps recommended that we
use independent interviewers who are not associated with the initial eligibility
determinations of the families included in the sample. Again, we complied with this
recommendation and contracted with 19 independent interviewers to conduct this
activity.

One of the procedural steps recommended that we report any evidence of deliberate
falsification or other fraud uncovered through the re-interview process. We are happy to
notify you that although the re-interview process uncovered some eligibility
determination errors, there was no deliberate falsification or fraud found in California.
Attached to this correspondence is the Random Sample Report, which describes the re-
interview process in California and its results. The error rate in California is 5.4 percent
according to the report.
                                                                                      Attachment
                                                                                      Page 2 of 2



Henry L. Johnson, Assistant Secretary
February 14, 2006
Page 2


If you have any questions regarding California's Re-Interview process or the results of
the Random Sample, please contact Ernesto Ruiz, Administrator, Migrant, Indian, and
International Education Office, at (916) 319-0851 or by e-mail at eruiz@cde.ca.gov.

Sincerely,



JACK O’CONNELL

JO:er
Enclosure
8396
